Report No. D-2010-069                          June 21, 2010




     Central Issue Facility at Fort Benning and Related
                        Army Policies
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CIF                          Central Issue Facility
CIF-ISM                      C IF-Installation Support Module
CONUS                        Continental United States
CRC                          CONUS Replacement Center
DOL                          Directorate of Logistics
DTAS                         Deployed Theater Accountability System
FLIPL                        Financial Liability Investigation of Property Loss
JAMMS                        Joint Asset Movement Management System
LCMC                         Life Cycle Management Command
LOA                          Letter of Authorization
OCIE                         Organizational Clothing and Individual Equipment
PPG                          Personnel Policy Guidance for
                                 Contingency Operations in Support of the Government
                                 War on Terror
SPOT                         Synchronized Predeployment and Operational Tracker
SWA                          Southwest Asia
USARCENT                     United States Army Central
                                 INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                  400 ARMY NAVY DRIVE 

                             ARLINGTON, VIRGINIA 22202-4704 

                                                                              JUN 2 1 2010


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
               COMMANDER, U.S. CENTRAL COMMAND
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               ASSISTANT SECRETARY OF THE AIR FORCE
                  (FINANCIAL MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: 	 Central Issue Facility at Fort Berrning and Related Army Policies
           (Report No. D-20 I 0-069)

We are providing this report for review and comment.

DOD Directive 7650.3 requires that recommendations be resolved promptly. Our
recQmmendation was not addressed by the Director, Defense Procurement and Acquisition
Policy. We request that this office provide comments on our recommendation (see
Recommendation Table on page ii) by July 21, 2010. The comments from the Headquarters,
Department of the Army, G-4 (Logistics), tllOugh not required, were responsive to our
recommendation.

Please provide comments that state whether you agree or disagree with the finding and
recommendation. If you agree with our recommendation, describe what actions you have taken
01' plan to take to accomplish the recommendation, and include the completion dates of your
actions. If you disagree with the recommendation 01' any part of it, please give specific reasons
why you disagree and propose alternative action if appropriate. If you disagree with the potential
monetary benefits, specifY the amount at issue. You should also comment on the internal control
weaknesses.

If possible, please send a .pdf file containing your comments to audros@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your organization.
We are unable to accept the / Signed / symbol in place of the actual signature. If you arrange to
send classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8901 (DSN 664-8901).
                                                  )	 .
                                            Ie(t).l C~L>,::.",~~{a/{{v(J'
                                                 7 ;.

                                             Alice F. Carey, CPA
                                                                   I

                                             Assistant Inspector Genera ~
                                             Readiness, Operations, and Support
Report No. D-2010-069 (Project No. D2008-D000LD-0245.000)                 	     June 21, 2010


               Results in Brief: Central Issue Facility at
               Fort Benning and Related Army Policies

What We Did                                            What We Recommend
We determined whether the Army central issue           We recommend that the Director Defense
facilities provided the required clothing and          Procurement and Acquisition Policy:
equipment to DOD civilians and contractor              •	 Establish a working group to develop
employees deploying to Iraq and Afghanistan               procedures to:
and whether these individuals returned the                    o	 Identify personnel who returned
clothing and equipment when their deployment                        from deployment but did not return
ended. We visited the central issue facility at                     recoverable clothing and
Fort Benning, GA, because, according to the                         equipment.
Army, about 95 percent of civilians and                       o	 Require personnel leaving the
contractor employees processed for deployment                       theater to turn in their recoverable
through that facility. Fort Benning issued                          clothing and equipment in theater
$21.4 million of recoverable clothing and                           and transfer chemical-biological
equipment to 7,338 civilians and contractor                         equipment to unit supply.
employees processed for deployment during                     o	 Obtain the clothing and equipment
FYs 2006 and 2007.                                                  or reimbursement from individuals
                                                                    who do not or did not return their
What We Found                                                       recoverable items.
The Army generally provided DOD civilians              •	 Implement the procedures developed by the
and contractor employees deploying to Iraq and            working group.
Afghanistan with proper clothing and                   •	 Require central issue facilities to retain
equipment.                                                deploying personnel’s contact information.
                                                       •	 Require contracts to have proper clauses and
The value of recoverable clothing and                     contract language so that contractors can be
equipment that was not returned by civilians              held liable for their employees’ unreturned
was unavailable. However, we determined that,             recoverable clothing and equipment.
of 940 contractor employees who deployed
during FYs 2006 and 2007 and returned,                 Management Comments
749 (about 80 percent) did not return
recoverable clothing and equipment, valued at          We requested comments on the draft report,
about $2.5 million, issued to them.                    dated January 12, 2010, from the Director,
                                                       Defense Procurement and Acquisition Policy,
Items were not recovered because the Army              but did not receive a response. The Director
lacked adequate internal controls for recovering       should submit comments by July 21, 2010.
clothing and equipment issued to civilians and         Please see the Recommendation Table on the
contractors. If adequate controls had been in          back of this page. Headquarters Department of
place, the Army could have put at least                the Army, G-4 (Logistics), while not required to
$2.5 million to better use. Additionally,              comment, provided informal comments and
inadequate controls could allow sensitive items        concurred with the recommendation in the
such as body armor to end up in the wrong              report.
hands.

                                                   i
Report No. D-2010-069 (Project No. D2008-D000LD-0245.000)               June 21, 2010

Recommendation Table
         Management              Recommendation               No Additional Comments
                                 Requiring Comment            Required
Director, Defense Procurement    1a, 1b, 1c,1d, 2, 3, and 4
and Acquisition Policy


Please provide comments by July 21, 2010




                                            ii
Table of Contents


Introduction

      Objectives                                                         1

      Background                                                         1

      Review of Internal Controls                                        3


Finding. Army Controls Over Organizational Clothing and Individual

          Equipment Items Issued to Civilians and Contractor Employees   4


      Management Actions                                                 13 

      Recommendation                                                     14 

      Management Comments Required                                       15 


Appendices

      A. Scope and Methodology	                                          16 

          Prior Coverage                                                 18 

      B. Organizational Clothing and Individual Equipment List	          19 

      C. Systems That Track Clothing and Equipment Items and Personnel   21 

      D. Revised Process for Return From Deployment	                     23 

      E. 	Chains of Command for Organizational Clothing and Individual   24 

           Equipment

Introduction
Objectives
Our objective was to determine whether central issue facilities (CIFs) provided the
required clothing and equipment to civilians and contractor employees deploying to Iraq
and Afghanistan and whether those personnel returned the clothing and equipment on
completion of their deployment.

The focus of our review was the CIF at Fort Benning, Georgia. See Appendix A for a
discussion of scope and methodology for this audit and for prior coverage.

Background
Civilians and contractor employees have historically supported U.S. military operations
both at home and abroad. Serving beside members of the uniformed Services, civilians
and contractor employees provide critical services to the troops and provide the expertise
necessary to ensure the availability of essential combat systems and weaponry.

The Congressional Budget Office estimated that from 2003 through 2007 DOD awarded
contracts totaling $76 billion in support of operations in Iraq. The Army was responsible
for obligating about 75 percent of these funds. The Congressional Budget Office
estimated that as of early 2008, at least 190,000 contractor employees were supporting
U.S. operations in the Iraq and Afghanistan theaters; of these employees, 20 percent or
38,000 were American citizens.

CONUS Replacement Centers
Civilians and contractor employees are processed for deployment at an Army Continental
United States (CONUS) Replacement Center (CRC) or at an individual deployment site.
Installation Management Command personnel who oversee the CRC at Fort Benning,
Georgia, told us the CRC processes about 95 percent of deploying civilians and
contractor employees. Because of this, we visited only the Fort Benning CRC and CIF.
Additionally, the Deputy Chief of Staff of the Army G-4 (Logistics) (G-4 [Logistics])
personnel noted that some contractors operate their deployment site and issue their own
clothing and equipment to their personnel. A CRC’s mission is to receive and process
members of the military, civilians, and contractor employees for deployment to theaters
of operation. At these deployment sites, personnel receive identification cards, medical
screening, clothing and equipment, and training.

As part of their processing at the CRC or equivalent, civilians and contractor employees
receive Organizational Clothing and Individual Equipment (OCIE) as prescribed by the
Department of the Army Personnel Policy Guidance for Contingency Operations in




                                            1

Support of the Global War on Terrorism (PPG) publication. 1 Army G-1 (Human
Resources) personnel informed us the PPG is updated about every six months. We
reviewed PPG updates from October 20, 2005, through September 29, 2009. See
Appendix B for a list of these OCIE items.

Fort Benning’s CRC mission is to receive and process individual non-unit related
personnel from all branches and components, and civilian employees, contractors, and
units for deployment to and redeployment from theaters of operation, and various
locations across the globe. Personnel processed through Fort Benning’s CRC receive
their OCIE from the Fort Benning CIF.

Central Issue Facilities
Of the 89 active CIFs and annexes worldwide, the Installation Management Command
operates 71 CIFs in CONUS and Outside Continental United States (OCONUS), and
United States Army Central (USARCENT) operates 10 CIFs in Southwest Asia (SWA).
Other commands manage the remaining eight CIFs. G-4 (Logistics) plans to consolidate
its CIFs and annexes under the Army Materiel Command.

OCIE issued to civilians and contractor employees deploying from an Army CIF varies
but generally includes items such as clothing, helmets, boots, sleeping bags, body armor,
and gas masks. Generally, CIFs issue civilians OCIE totaling about $5,700 and
contractor employees OCIE totaling about $3,500. CIFs issue some contractor
employees additional OCIE items because of their mission and theater of deployment.

Fort Benning’s CIF is operated by a subcontractor of the contractor operating Fort
Benning’s Directorate of Logistics (DOL). The initial contract was from May 24, 2008,
through May 23, 2009, and totaled about $39.0 million. The Government extended the
contract through May 23, 2010. The portion of the contract related to operating this CIF
is estimated to be about $3.0 million. Fort Benning’s DOL provided a briefing chart
indicating that, in FYs 2006 and 2007, the CRC processed about 10,350 individuals for
deployment. However, DOL personnel could not separate the civilians from the
contractor employees. Additionally, the briefing chart showed that, from June 2005
through September 2008, the CIF estimated that it issued deploying contractor employees
recoverable OCIE valued at about $48.2 million. The DOL did not provide data for
civilian personnel.

Before the Kuwait CIF’s mission was modified to allow civilians and contractor
employees to turn in OCIE on completion of their deployment, they were required to
return to CONUS through the CRC they deployed from and return the recoverable OCIE.
Items that touch the skin, such as boots, T-shirts, underwear, and socks, are not required
to be returned. G-4 (Logistics) personnel informed us that the PPG is currently under
revision and that the future version will require civilians and contractor employees to turn
in their recoverable OCIE in theater before returning home.

1
 The document is currently titled “Personnel Policy Guidance for Overseas Contingency Operations”
Updated October 27, 2009.


                                                  2

Review of Internal Controls
We determined that internal control weaknesses in the Army existed as defined by DOD

Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” 

January 4, 2006. G-4 (Logistics) did not have processes to:


   •	 capture information necessary to identify and hold accountable civilians and
      contractor employees for OCIE issued to them before deployment,
   •	 determine when civilians and contractor employees returned from deployment,
   •	 identify civilians and contractor employees who did not return their recoverable
      OCIE,
   •	 ensure processing of returning civilians and contractor employees through a CRC
      and a CIF, and
   •	 recover the items or obtain reimbursement for unreturned, recoverable OCIE.

Therefore, the Army could not identify civilians and contractor employees who did not
return OCIE, and the Army could not recover or obtain reimbursement for unreturned
OCIE.

Recommendation parts (1)(a) and (3), if implemented, should correct the problem of
identifying civilians and contractor employees who returned home without returning their
OCIE. Recommendation parts (1)(b), (1)(c), (1)(d), and (2), if implemented, should
correct the problem of the Government not pursuing recoverable OCIE or reimbursement
for unreturned OCIE. Implementation of Recommendation part (4) should correct the
problem of the Government not obtaining reimbursement from contractors whose
employees came home without returning their recoverable OCIE. We will provide a
copy of the report to the senior official responsible for internal controls in the Department
of the Army.




                                             3

Finding. Army Controls Over Organizational
Clothing and Individual Equipment Items
Issued to Civilians and Contractor
Employees
The Army’s process for issuing OCIE ensured that civilian and contractor employees
received the required clothing and equipment. However, the Army’s process for
recovering OCIE from civilians and contractor employees on completion of their mission
needs improvement. The amount and value of unreturned, recoverable OCIE issued to
civilians were unavailable. However, of 940 contractor employees who deployed during
FYs 2006 and 2007 and subsequently returned home, 749 (about 80 percent) did not turn
in recoverable OCIE, valued at $2.5 million, as required by the Army’s PPG. Items were
not recovered because management controls for recovering or obtaining reimbursement
for the items were inadequate. Specifically, the Army did not develop procedures and
controls to:

   •	 capture information necessary to identify and hold accountable civilians and
      contractor employees for OCIE issued to them before deployment,
   •	 determine when civilians and contractor employees returned from deployment,
   •	 identify civilians and contractor employees who did not return their recoverable
      OCIE,
   •	 ensure processing of returning civilians and contractor employees through a CRC
      and a CIF to return recoverable OCIE, and
   •	 recover the items or obtain reimbursement for unreturned, recoverable OCIE.

As a result, the Army was unable to determine the amount and value of unreturned OCIE
and had to expend resources to replace the items. Additionally, we determined that items
such as Kevlar vests and Enhanced Small Arms Protective Inserts were offered for sale
on Web-based auction sites. If the Army had implemented adequate controls for
recovering OCIE from civilians and contractors who ended their deployment, the Army
could have put at least $2.5 million to better use. During the audit, the Army began to
retain documentation, planned to initiate a process to determine when contractor
employees returned from deployment, and modified the Kuwait CIF mission to allow
turn-in of OCIE. The Army still needs to ensure that civilians and contractors process
through a CIF and return recoverable OCIE.

Issuing OCIE
Army procedures for issuing OCIE to civilians and contractor employees were adequate.
The CRC scheduled individuals for deployment processing based on information
received through its Web-based reservation system. The CRC generated a personnel
roster based on Letters of Authorization (LOAs) and forwarded the roster to the CIF.
However, CIF personnel informed us they did not maintain LOAs and other documents



                                           4

before November 2007, resulting in no record of authorizations for items issued to
deploying individuals in excess of those prescribed by the PPG.

Issue Process
The OCIE issue process begins when the CIF receives the personnel roster from the
CRC. The deploying personnel roster includes each individual’s name, Social Security
number, rank, civilian or contractor status, and theater of deployment, but does not
include the individual’s employer or contract number. CIF personnel enter the roster into
the CIF-Installation Support Module (CIF-ISM). When individuals arrive, CIF personnel
brief them on the issue process. During the briefing, CIF personnel tell the individuals
that they are responsible for the items issued to them and that, on completion of
deployment, they are required to process through the CRC at Fort Benning to return
recoverable OCIE as required by the PPG.

CIF personnel issue OCIE to the deploying individuals according to established OCIE
menus based on the theater of deployment, whether the individuals are civilians or
contractor employees, and whether they are embedded with units. The CIF requires that
personnel take all items on the applicable menu. At this time the CIF may make
amendments to the issue menu, but G-4 (Logistics) must approve additional items. The
CIF-ISM generates an issue worksheet, listing the items from the OCIE menu, to record
items issued to deploying personnel. On completion of the OCIE issue process, the CIF-
ISM generates two copies of Form 3645, “OCIE Record.” This form lists the items
issued to the individual. The individual verifies receipt of the items in the quantities
specified and signs for the items. The individual retains one copy of the form, and CIF
personnel scan a copy of it and the issue worksheet into a local database called Fortis.

CIF-ISM is a database used to track OCIE issued to military, civilian, and contractor
personnel deployed through CIFs. In October 2006, the TACOM Life Cycle
Management Command (LCMC) assumed responsibility for managing the database,
which maintains data on receipt, storage, issue, exchange, and turn-in of authorized OCIE
at Army installations. CIF-ISM shows the total initial and replacement items issued to
military, civilians, and contractor employees. TACOM LCMC Central Management
Office personnel told us that, as of November 11, 2007, CIF-ISM distinguished between
civilians and contractor employees. Previously, CIF-ISM identified all deploying
civilians and contractor employees only as civilians. If personnel do not return through a
CIF on completion of their deployment, they remain in the database and are shown as
having outstanding OCIE until the OCIE is returned or otherwise accounted for.
CIF-ISM does not track the movement of civilians or contractor employees nor does it
indicate an individual’s redeployment date.

Issue Records
We drew a judgmental sample of 303 civilians and contractor employees from a universe
of 7,338 civilians and contractor employees who deployed to SWA during FYs 2006 and
2007. We used the sample to determine whether the CIF issued all items prescribed by
the PPG in effect at the time of issue. See Appendix A for the sampling methodology.
Of the 303 individuals in our sample, 108 received the required OCIE, and 182 received


                                            5

additional items valued at less than $1,550; the value of items received by 155 of the 182
was less than $215. The combined value of the additional items received was worth
about $52,600. We were unable to review OCIE issued to seven individuals because
neither CIF nor DOL personnel could determine whether they issued OCIE to civilian,
contractor, or military personnel; whether the individuals were deploying; or where they
were deploying. We did not review 6 of the 303 individual records in our initial sample
because they were outside the scope of our review: the individuals deployed to locations
other than SWA.

Of the 182 individuals who received additional items, 27 had additional items issued that
we considered significant. These 27 individuals each received additional items totaling
over $850. Sixteen of these people were issued items on a contractor menu for
translators, and 11 people were issued items on the standard contractor issue menu. CIF
personnel stated that they provide translators with OCIE similar to that provided to
military personnel because they are embedded with the troops. Our research supported
this statement. However, the PPG states that “additional OCIE may be issued to
contractors based on negotiated contracts and written approval with a list of … G-4
approved items.” CIF personnel were unable to provide us with the documents
authorizing the issue of additional OCIE to the translators or to the 11 other individuals
issued significant additional items. We concluded that even though deploying personnel
were sometimes issued items additional to that prescribed by the PPG, Fort Benning’s
CIF was generally providing the proper OCIE to deploying civilians and contractor
employees.

DOL personnel stated that, before November 2007, the only document they retained was
the issue worksheet. After November 2007, they started scanning into Fortis copies of
orders, LOAs, and other documents that allowed for adjustments to the items prescribed
by the PPG. We did not validate the new procedure of scanning orders, authorizations
for additional OCIE, and other supporting documents into a local database using Fortis
software. However, if the process is working, it should provide adequate documentation
for issuing more OCIE to civilians and contractor employees than authorized in the PPG
and should provide access to civilian and contractor employee contact information.

Recovering Organizational Clothing and Individual
Equipment
Because CIF-ISM did not distinguish between civilian and contractor employees before
November 11, 2007, the amount and value of unrecovered OCIE issued to civilians was
unavailable. However, by matching Fort Benning’s CIF-ISM database to the
Synchronized Predeployment and Operational Tracker (SPOT), which is used to track
contractor employees in theater, we identified 940 contractors who ended their
deployment during the audit period. We determined the Army did not recover about
$2.5 million in recoverable OCIE from 749 of the 940 contractor employees (about
80 percent). Upon completion of their mission, civilians and contractor employees were
required to return to the CRC from which they deployed and return their OCIE.
However, not all did so. For those individuals who did return to the CRC at Fort Benning
on completion of their mission, the OCIE turn-in process was relatively uncomplicated.


                                            6

Recovery Process
On arrival at the CRC, civilians and contractor employees are assigned to Echo
Company, 197th Infantry Brigade, for command and control. During their stay, Echo
Company provides billeting and transportation to and from each processing site.
Personnel process through the CIF and turn in their recoverable OCIE, which is then
recorded as returned in their CIF-ISM record. Once OCIE is turned in, civilians and
contractor employees are cleared to coordinate their own transportation to their final
destination.

Civilian Unreturned Organizational Clothing and Individual
Equipment
Fort Benning personnel could not provide the value of recoverable OCIE issued to
civilian personnel during FYs 2006 and 2007 but not returned at the end of their
deployment. Prior to November 11, 2007, CIF-ISM identified both civilians and
contractor employees as civilians. Even if CIF-ISM had been able to identify civilians,
CIF personnel were still unable to determine when civilians returned from deployment.

Contractor Unreturned Organizational Clothing and Individual
Equipment
We identified about $2.5 million in recoverable OCIE not returned by contractor
employees who deployed to SWA during FYs 2006 and 2007 and completed their
missions. During FYs 2006 and 2007, Fort Benning’s CRC processed 7,338 civilians and
contractor employees for deployment. These individuals were issued about $21.4 million
of recoverable OCIE by the CIF on the base. Although we could not differentiate
between civilians and contractors in CIF-ISM, we determined, by performing a computer
match between CIF-ISM and SPOT, that at least 4,075 of these 7,338 individuals were
contractor employees. We determined that, of 940 contractor employees who ended their
deployment, 749 (about 80 percent) did not return their OCIE (18,641 items valued at
$2.5 million) as required. We provided the list of 749 contractor employees to the Fort
Benning CIF for action.

Improving Controls Over Organizational Clothing and
Individual Equipment Issued to Civilians and Contractor
Employees
Army controls for recovering unreturned OCIE or obtaining reimbursement for
unreturned OCIE were inadequate. While the Army has taken steps to improve the
collection of recoverable items from civilians and contractor employees who have ended
their deployment, these steps are not yet complete. The Army did not develop procedures
to identify civilians and contractor employees who ended their deployment without
returning their recoverable OCIE. Also, the Army had no controls to ensure civilians and
contractor employees returned home through the originating CRC, as required. In
addition, the Army had no effective mechanism to recover the unreturned OCIE or obtain
reimbursement.



                                            7

Identifying Returning Civilians and Contractor Employees
Although the OCIE issued remained on the CIF property books, CIF personnel had no
control over the OCIE or the individual once the individual deployed. The CIF did not
record planned end-of-deployment dates. CIF-ISM, which was used by the CIF to record
the OCIE issued, did not track the movement of deployed personnel to, within, or back
from the theater. The Deployed Theater Accountability System (DTAS), which tracks all
personnel in theater, and SPOT, which tracks contractor employees in theater, did not
interface with CIF-ISM. See Appendix C for a description of these systems. As a result,
Fort Benning CIF personnel did not know when civilian and contractor employees
returned and should have turned in their recoverable OCIE, and the Army could not
determine the amount and value of unreturned OCIE.

DTAS tracks the movement of civilian and military personnel to, from, and within the
theater. This restricted database could be matched against the CIF-ISM database to
identify civilians who returned home but did not return their OCIE. When these
individuals are identified, CIF personnel could contact them to return the recoverable
items or initiate action to recover the cost of these missing items. Because DTAS is the
only system that has the information required to identify the movement of civilians in and
out of theater, CIF personnel could not identify those civilians who had returned from
deployment and not returned their recoverable OCIE. DTAS personnel are working on
an application to allow access by CIF personnel to portions of the database. Without
access to DTAS, we could not determine which civilians had returned from theater and
should have returned their recoverable OCIE.

SPOT is a single, joint enterprise system employed for the management and tracking of
contractor employees accompanying U.S. Armed Forces overseas. It is used by defense
contractors, Government agencies, and the military. Like DTAS, it does not interface
with CIF-ISM, so CIF personnel have no knowledge of when a contractor employee
returned home. However, unlike DTAS, by interfacing with the Joint Asset Movement
Management System (JAMMS), SPOT can provide contractor employee end-of-
deployment dates to CIF-ISM to enable the CIF to develop a list of individuals who have
ended their deployment without turning in their recoverable OCIE.

JAMMS uses scanning technology to record the movement of deployed personnel.
Deployment movements are a collection of recorded movement scans that are captured as
a person moves throughout an area of responsibility. JAMMS workstations are located at
population chokepoints like dining facilities and ports of embarkation and debarkation.
G-4 (Logistics) has authorized placing JAMMS terminals at seven CIFs on a trial basis.

The Army needs to develop procedures to determine when civilians and contractor
employees return from deployment. Doing so will enable the Army to pursue unreturned
OCIE.

Controlling Returning Personnel
Civilians and contractor employees were required to return to the CRC from which they
deployed and turn in their OCIE. However, CIF personnel estimated that about 50


                                            8

percent of the individuals who deployed from the Fort Benning CRC did not return there
at the end of their deployment. To facilitate the return of OCIE by civilians and
contractors, USARCENT modified the mission of the CIF in Kuwait, and individuals can
now return their OCIE in theater. The Logistics Manager within G-4 (Logistics)
informed us that he is revising the PPG to reflect this policy change. See Appendix D for
the revised process for returning OCIE. However, while we believe that establishing a
fully functional CIF in Kuwait will improve Army’s OCIE collections, there is still no
process in place to enforce the requirement to process through the Kuwait CIF before
departing theater.

As a result of the Army’s inability to enforce the requirement for civilians and contractor
employees to return to the CRC from which they deployed and return their OCIE or to
turn in their OCIE in theater, the Army has to expend resources to replace the unreturned
OCIE.

Establishing a Fully Functional Central Issue Facility in Theater
Senior Army personnel in a number of commands were aware that returning personnel
did not return recoverable OCIE on completion of their deployment. See Appendix E for
the chain of command involved in the OCIE process. In May 2006, Fort Benning’s DOL
hosted an Individual Equipment Accountability Conference. During this conference, the
lack of control over OCIE was discussed. Later in 2006, USARCENT began a series of
Desert Summits to improve overall logistics functions in the theater area of
responsibility. Organizations represented at these summits included USARCENT, G-4
(Logistics), Program Executive Office Soldier, and the 1st Theater Sustainment
Command. At the July 2008 Desert Summit meeting, participants decided to augment
the services offered by the CIF in Kuwait. Subsequently, USARCENT approved this
decision. Before this, the CIF in Kuwait processed only soldiers permanently assigned in
Kuwait. According to 1st Theater Sustainment Command personnel, the rationale for its
limited mission was that civilians and contractors were returning to their deployment
CRC and returning their OCIE there.

The 1st Theater Sustainment Command was tasked by USARCENT to establish a fully
functional CIF in Kuwait by May 2009. Phase I of this process slipped to June 1, 2010.
This CIF is intended to provide issue, 2 turn-in, and exchange capability for all military
and civilian agencies providing support to transitional units, civilians, and contractor
employees. This CIF has a fully functional CIF-ISM interface. Civilians, contractor
employees, and other personnel can turn in their OCIE and have the return recorded in
CIF-ISM. Before individuals leave the theater, they must turn in their
chemical/biological masks and other controlled items to the units the individuals were
assigned to, and the unit transfers custody using the Property Book Unit Supply
Enhanced system. The CIF in Kuwait began collecting recoverable OCIE from personnel
departing theater as of January 20, 2009. When an item is turned into the Kuwait CIF,




2
    Issue means the distribution of clothing and equipment to personnel arriving in theater.


                                                       9

ownership is transferred from the issuing CIF to TACOM LCMC’s Central Management
Office.

Although having a CIF in Kuwait will make it easier for personnel returning to CONUS
to return their OCIE, there is no way of knowing whether all individuals process through
the CIF before departure. The Army needs a procedure to inform the appropriate CIFs
that civilians and contractor employees have returned to CONUS so that the status of
their OCIE can be determined. According to G-4 (Logistics) and Fort Benning DOL
personnel, the CIF that initially issued the OCIE is still responsible for any item not
turned in by the returning civilians or contractors.

As stated above, the PPG now requires civilians and contractor employees departing
theater to transfer custody of their chemical/biological equipment to the units the
individuals were assigned to and to turn in their recoverable OCIE to the CIF in Kuwait.
However, there are inconsistencies in the way returning individuals are complying with
PPG guidance. Fort Benning's property book officer stated that returning individuals:

    •   returned their OCIE in theater as directed,
    •   returned home with their chemical gear and other OCIE, or
    •   turned in their chemical gear to another CIF.

However, Fort Benning’s Property Book Officer stated that if the chemical gear is turned
in to the unit supply, he must use a Financial Liability Investigation of Property Loss
(FLIPL) to get it off Fort Benning’s property books because the unit supply in SWA
does not have the proper information to effect a lateral transfer in the Property Book Unit
Supply Enhanced system or CIF-ISM. A FLIPL is the administrative tool used by the
Army to establish liability. A financial liability investigation is used in situations where
responsibility for the loss, damage, or destruction of U.S. Government property is in
question, or where the amount to be charged is in dispute.

We believe establishing a fully functional CIF in Kuwait will further improve the OCIE
collection process, but it will not totally alleviate the problem. Civilians and contractor
employees will still be able to return to CONUS without passing through the CIF and
returning their recoverable OCIE.

The Army needs to establish procedures to ensure that civilians and contractor employees
process through a CIF and turn in their recoverable OCIE and turn in their
chemical/biological equipment to assigned units so it can be transferred to those units.

Obtaining Reimbursement for Unreturned Items
The methods for obtaining reimbursement for unreturned OCIE differ for civilians and
contractors. The process for obtaining reimbursement from civilians for unreturned
OCIE is spelled out in Army Regulations. Obtaining reimbursement from contractors for
their employees’ unreturned OCIE is governed by the Federal Acquisition Regulation and
terms and conditions of the contract.



                                             10 

Civilians
Reimbursement for lost property from civilians is addressed in Army Regulation 735.5,
“Policies and Procedures for Property Accountability,” February 28, 2005, chapter 13,
“Financial Liability Investigation of Property Loss.” Fort Benning personnel did not
actively pursue unreturned recoverable OCIE issued to civilians and did not have any
statistics on the amount and value of unreturned recoverable OCIE issued to civilians.
Again, because systems did not interface, CIF personnel had no way of knowing whether
or when civilians ended their deployment. As a result, the Army could not pursue
recoverable OCIE or reimbursement for unreturned OCIE.

Contractor Employees
Although civilian employees can be held liable for lost OCIE, contractor employees
cannot. Fort Benning's Staff Judge Advocate stated in a November 29, 2007, opinion that
contractor employees cannot be held responsible for lost OCIE; rather, financial liability
is governed by the Federal Acquisition Regulation and the terms of the contract with the
Army. The Army Training and Doctrine Command Staff Judge Advocate concurred with
this opinion. Recouping the cost of Government property in the hands of contractors that
has been lost, damaged, or destroyed is dictated by Federal Acquisition Regulation
Subpart 52.245-1, viii, h, “Contractor Liability for Government Property,” and the terms
and conditions of the contract.

For a contractor to be held liable for a loss of OCIE, the contract must contain the proper
clauses. According to the Army’s Acting Director, Procurement Policy Support
Directorate (referred to here as the Acting Director of Procurement), the contract has to
designate the OCIE as Government-furnished equipment, incorporate the clauses that
make the contractor liable for the Government-furnished equipment, and transfer it to the
contractor. The previous Director of Procurement noted that because numerous
organizations write contracts, there is no way of knowing whether the proper clauses are
incorporated in the contracts.

The previous Director of Procurement subsequently informed us that Defense Federal
Acquisition Regulation Supplement 252.225.7040, “Contractor Personnel Authorized to
Accompany U.S. Armed Forces Deployed Outside the United States,” (originally issued
in June 2006 and reissued several times thereafter, most recently in January 2009) should
have been incorporated in all relevant contracts issued after June 2006. Paragraph (i)(4)
states, “the Contractor shall ensure that all issued OCIE is returned to the point of issue,
unless otherwise directed by the contracting officer.”

Fort Benning personnel noted that they provided information to contracting officers when
they become aware of contractor employees who returned without all the recoverable
OCIE they were issued and refused to reimburse the Government for the lost items. Fort
Benning’s property book officer and DOL Supply and Services Division personnel stated
that in some instances the contracting officer was able to obtain reimbursement for the
lost items. However, the property book officer and DOL personnel were unable to
provide the number of cases of lost OCIE they forwarded to the contracting officer; the



                                             11 

number that resulted in loss, damage, or destruction inquiries; or the dollar amounts
recovered as a result of contracting officer action.

Because contracts were outside the scope of our audit, we did not review any contracts
for the inclusion of the proper clauses and language that would allow the contracting
officer to obtain restitution for OCIE lost by contractor employees. Further, we did not
discuss with contracting officers why they did or did not attempt to obtain reimbursement
from contractors for lost OCIE. As a result, we could not determine whether the Army
did not pursue the contractors or could not collect reimbursement because the contracts
did not include the correct contract clauses and language.

The Army needs to include proper clauses in contracts so that contractors can be held
liable for recoverable OCIE issued to but not returned by contractor employees.

Preventing Illegal Use of Items
Individuals we talked with throughout the Army were aware that a great deal of the OCIE
issued to deploying civilians and contractor employees was unaccounted for.
Additionally, during our initial research, we identified some sensitive military OCIE
items that were available for sale on Web-based auction sites. For example, we found
items such as Kevlar vests, Advanced Combat Helmets, Small Arms Protective Inserts,
and Enhanced Small Arms Protective Inserts for sale on eBay, Craigslist, and Gunbroker
Web auction sites. A contractor employee offered at least one of these items for sale.
The Government Accountability Office (GAO) identified the same issue in an April 2008
report. 3 Regardless of the cost to replace these items, their illegal use could create a
dangerous situation for law enforcement officials. We gave the Defense Criminal
Investigative Service the details of our research related to OCIE items on Web-based sale
sites.

Involving Other Organizations
To mitigate the loss of OCIE as a result of civilians and contractor employees not
returning through the CRC and not returning recoverable items, the Army has taken the
following steps: modifying the mission of the CIF in Kuwait, retaining Letters of
Authorization and other documentation, and planning to install JAMMS in designated
CIFs. However, lost OCIE is not just an Army problem. A joint working group is
needed to help recover OCIE. Participation by the Defense Procurement and Acquisition
Policy office is needed to require insertion of correct contract clauses and language in all
DOD contracts to ensure that contractors can be held accountable for recoverable OCIE.
DPAP agreed to host the working group, which would develop the procedures to correct
the deficiencies noted. Help from the Defense Finance and Accounting Service is needed
because only it can process debt collection actions against civilians and contractors.
Further, Defense Finance and Accounting Service may be able to determine from payroll
records when Army and other agency civilians return from deployment. The Defense


3
 GAO Report Number GAO-08-644T, “Undercover Purchases on eBay and Craigslist Reveal a Market for
Sensitive and Stolen U.S. Military Items,” April 10, 2008.


                                              12 

Logistics Agency is needed because it is responsible for providing required equipment to
the Services. Because Navy and Air Force civilian and contractor employees process
through the Army’s CIF as well as their own organizations, Navy and Air Force
participation is needed to help standardize the process across the Services and to provide
end-of-deployment information for Navy and Air Force personnel.

Conclusion
The Army’s process for issuing OCIE ensured that civilian and contractor employees
received the required clothing and equipment. However, the Army’s process for
recovering OCIE from civilians and contractor employees on completion of their mission
needs improvement. Items were not recovered because management controls for
recovering or obtaining reimbursement for the items were inadequate. As a result, the
Army was unable to determine the amount and value of unreturned OCIE and had to
expend resources to replace the items. If the Army had implemented adequate controls
for recovering OCIE from civilians and contractors who ended their deployment, the
Army could have put at least $2.5 million to better use. The Army needs to identify
individuals who have returned from deployment and to obtain recoverable OCIE or
reimbursement from those who have ended their deployment but have not returned their
OCIE. The Army should develop procedures to ensure civilians and contractor
employees process through CIFs and return the items when their deployment ends. If the
employees do not return the OCIE, the CIF should initiate a FLIPL for restitution or an
accounting for the lost items from civilian employees and should contact the contracting
office to initiate collection from the contractor for the cost of the unreturned OCIE. DOD
should ensure that contracts contain language holding contractors accountable for OCIE
issued to their employees.

Management Actions
Army G-4 (Logistics) informed us that it has taken the following action as of
March 9, 2010:

   •	 Placing automation at all CIFs with contractor support and developing policy,
   •	 Coordinating with the Logistics Civil Augmentation Program to include OCIE as
      Government Furnished Equipment on contracts, which would be controlled by
      individual contractors,
   •	 Having CIFs contact Contracting Officers to recoup funds for unreturned 

      contractor OCIE, and

   •	 Changing CIF ISM to improve contractor tracking.




                                            13 

Recommendation
We recommend that the Director, Defense Procurement and Acquisition Policy:

    (1) Establish a working group to include officials from the U.S. Central Command,
        Defense Finance and Accounting Service, Defense Logistics Agency, Office of
        the Deputy Assistant Secretary of the Army (Procurement), Office of the Deputy
        Chief of Staff of the Army G-4 (Logistics), Navy, and Air Force to improve
        recovery of Organizational Clothing and Individual Equipment. The working
        group should develop procedures to:

          (a) Identify civilians and contractor employees who returned from
              deployment but did not turn in the recoverable Organizational Clothing
              and Individual Equipment they were issued.

          (b) Ensure all civilians and contractor employees turn in their recoverable
              Organizational Clothing and Individual Equipment items to the in-theater
              central issue facility before returning from deployment, and enforce the
              requirement to transfer custody of protective chemical-biological
              equipment to supply as required by the Personnel Policy Guide for
              Overseas Contingency Operations.

          (c) Obtain recoverable Organizational Clothing and Individual Equipment or
              reimbursement from civilians and contractors whose employees did not
              turn in their recoverable Organizational Clothing and Individual
              Equipment items.

          (d) Obtain unreturned recoverable Organizational Clothing and Individual
              Equipment or reimbursement for unreturned Organizational Clothing and
              Individual Equipment issued to civilians and contractor employees in prior
              years.

    (2) Implement the procedures developed by the working group.

    (3) Require central issue facility personnel to retain civilians’ and contractor
        employees’ contact information to enable the CIF to contact them if they do not
        return Organizational Clothing and Individual Equipment.

    (4) Require DOD Components to include proper clauses and contract language in
        new contracts and modify existing contracts so that contractors can be held liable
        for the recoverable Organizational Clothing and Individual Equipment issued by
        central issue facilities to deploying employees but not returned on mission
        completion.




                                           14 

Management Comments Required
Defense Procurement and Acquisition Policy Comments
We requested comments from the Director, Defense Procurement and Acquisition Policy.
However, he did not provide comments on the report or recommendations. We request
that the Director Defense Procurement and Acquisition Policy provide comments to the
recommendation by July 21, 2010.


Headquarters Department of the Army Comments
Although not required to comment, the Deputy Chief of Staff, G-4 (Logistics) provided
informal comments and concurred with the recommendation in the report.




                                          15 

Appendix A. Scope and Methodology
We conducted this performance audit from August 2008 through January 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We reviewed the processes and controls at the contractor-operated Army CIF, Fort
Benning, Georgia, for the issue and return of clothing and equipment items (Class II
Property) issued to civilian and contractor employees before their deployment in support
of U.S. military operations in Iraq and Afghanistan. We did not review Property Book
Unit Supply Enhanced items, such as weapons and gas masks, other than to determine
turn-in procedures. We reviewed:

        •	 Federal Acquisition Regulation Part 52.245-1, viii, h, “Contractor Liability for
           Government Property,” Defense Federal Acquisition Regulation Supplement
           clause 252.225.7040, “Contractor Personnel Supporting a Force Deployed
           Outside the United States,” and the Department of the Army Personnel Policy
           Guidance (PPG) for Contingency Operations in Support of the Global War on
           Terrorism 4 publication ranging from October 20, 2005, through May 14,
           2007, related to CIF operations, specifically guidance related to the issue of
           clothing and equipment items to civilians and contractor employees and the
           return of these items on completion of their deployment;
        •	 controls to ensure the prescribed clothing and equipment items were issued to
           civilians and contractor employees deploying to Southwest Asia, and
        •	 controls to ensure that recoverable items issued to civilians and contractor
           employees were returned or otherwise accounted for.

A briefing chart provided by Fort Benning DOL personnel showed that the CIF had
outstanding recoverable items totaling $2.3 million for FY 2006 and $11.2 million for
FY 2007. We tested the data in CIF-ISM to determine the number, value, and types of
items issued to civilians and contractors. We compared SPOT information with the
CIF-ISM to identify contractor employees issued clothing and equipment items who had
returned from theater without returning recoverable clothing and equipment items.
Information to identify civilians who ended their deployment was unavailable because
the Army was still working on an interface with DTAS to provide this information.




4
 Currently titled “Department of the Army Personnel Policy Guidance for Overseas Contingency
Operations”. Updated October 27, 2009.


                                                 16 

We visited or contacted personnel from the following entities:

   •	   Defense Procurement and Acquisition Policy Office, Washington, DC
   •	   Defense Finance and Accounting Service, Indianapolis, Indiana
   •	   Army Deputy Chiefs of Staff G-1, and G-4 in Washington, DC
   •	   Office of the Deputy Assistant Secretary of the Army (Procurement), 

        Washington, DC

   •	   Army Installation Management Command, Arlington, Virginia
   •	   Army Training and Doctrine Command, Fort Monroe, Virginia
   •	   Army Materiel Command, Fort Belvoir, Virginia
   •	   U.S. Central Command, MacDill AFB, Florida
   •	   U.S. Army Central, Fort McPherson, Georgia
   •	   1st Theater Sustainment Command, Fort Bragg, North Carolina
   •	   DOL, CIF, CRC, Rapid Fielding Initiative, Fort Benning, Georgia
   •	   Army Corps of Engineers, Washington, DC
   •	   Army Corps of Engineers CIF, Winchester, Virginia
   •	   Army TACOM Life Cycle Management Command, Organizational Clothing and
        Individual Equipment, Central Management Office, Edgewood, Maryland

Sampling Methodology
TACOM LCMC’s Central Management Office provided us with a database of Fort
Benning CIF OCIE issued to civilians and contractors. We filtered the database for
FYs 2006 and 2007. We further filtered the database by menus identifying whether the
deploying individual is a civilian or a contractor employee and the location of the
deployment. We included menus that identified the individual as a civilian or a
contractor employee deployed to Southwest Asia. We also included some menus that, at
the time of selection, could not be identified as a civilian or contractor menu. Further, we
included some menus that were not identifiable to a specific deployment location. As a
result of these filtering processes, our universe consisted of 29 menus with a total of
8,664 records. Subsequent to our sample selection, the 8,664 records were reduced to
7,338 individuals who deployed during FY 2006 and 2007 by eliminating individuals
who appeared on more than one menu. We judgmentally selected 303 records for review
to determine whether the deployed personnel received the required OCIE as prescribed
by the PPG in effect at the time of deployment. The 303 records were derived from
selecting every 20th person listed on large menus, every 30th person listed on the largest
menus and a judgmental selection of 1 person from smaller menus containing less than
20 items for issue.

Scope Limitations
Information to determine the value of OCIE issued to civilian employees was
unavailable. CIF-ISM did not differentiate between civilians and contractor employees
until November 2007. Further, DTAS, the classified system used to track civilian and
military personnel to, from, and within theater, does not interface with CIF-ISM. An




                                            17 

unclassified bridge to the system is under development. Without knowing which
civilians have ended their deployment, we could not determine who should have, but did
not, return their recoverable OCIE.

The Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
would not provide us with a database from SPOT because it contains personally
identifiable information. Officials agreed to compare our list of personnel deployed to
SWA with personnel listed in SPOT to identify contractor employees who completed
their deployment within our audit time frame. We accepted the offer. However, this
operation was performed outside of our control.

Use of Computer-Processed Data
We used data from CIF-ISM and SPOT to identify contractor employees who deployed
through the Fort Benning CRC, had not returned through the CRC, and had not returned
the OCIE they were issued before deployment. We did not perform a formal reliability
assessment of these computer-processed data. However, we audited the data contained in
CIF-ISM, so the reliability of the data is addressed. Further, if data in SPOT is
incomplete, our results will be understated, but otherwise accurate. We did not find
material errors that would preclude the use of the computer-processed data to meet the
audit objective or that would change the conclusion of this report.

Prior Coverage
During the last 5 years, the Army Audit Agency issued one report related to its central
issue facilities. Unrestricted Army reports can be accessed from .mil and gao.gov
domains through the Internet at https://www.aaa.army.mil/.

Army
Army Audit Agency Report Number A-2006-0233-ALL, “Clothing Issue Facilities,
Audit of Logistics Civil Augmentation Program Operations in Support of Operation Iraqi
Freedom,” September 22, 2006




                                            18 

Appendix B. Organizational Clothing and
Individual Equipment List
           Item              DOD/DA        Contractor   AAFES*     Recoverable
                              Issue          Issue       Issue        Item
                             Quantity       Quantity    Quantity
Barracks Bag                    1              0           0          Yes
Duffel Bag                      3              2           2          Yes
Waterproof Bag                  2              0           1          Yes
Riggers Belt                    1              0           0          No
Boots, Hot Weather              2              0           2          No
Boots, Temperate Weather        2              0           0          No
Boots, Cold, Wet                1              0           1          No
Trousers Camouflage             4              4           4          Yes
Coat Camouflage                 4              4           4          Yes
Sun Hat                         0              0           1          No
Cap Camouflage                  1              1           1          No
Hat Camouflage                  1              1           1          No
Knee Pads                       1              0           0          Yes
Elbow Pads Inserts              1              0           0          Yes
Elbow Pads                      1              0           0          Yes
Glove System, Summer            1              0           0          No
Glove System, Intermediate      1              0           0          No
T-Shirts, Moist Wick            0              0           4          No
Socks, Cotton                   0              0           4          No
IBA                             1              1           1          Yes
ESAPI†                          2              2           2          Yes
Combat Helmet                   1              1           1          Yes
Helmet Cover                    1              1           0          Yes
Canteen 1 quart                 1              0           1          Yes
Canteen Cover                   1              0           1          Yes
Canteen Cup                     1              0           0          Yes
First Aid Case                  1              1           1          Yes
Vest, Load Bearing (or)         1              0           0          Yes
Suspenders, Individual          1              0           0          Yes
 Equipment
 & Belt, Individual             1              0           0          Yes
   Equipment
Hydration System                1              0           0          No
Sleeping Mat                    1              0           0          Yes
Sleeping Bag                    1              0           1          Yes
Goggles                         1              0           0          No
Ballistic Spectacles            1              0           1          No


                                        19 

Neckerchief                                1               0                0              No
Cap, Cold Weather                          1               0                0              No
Balaclava or Neck Gaiter                   1               0                0              No
Inserts                                    2               0                2              No
Gloves                                     1               0                1              No
Drawers, Polypropylene                     2               0                2              No
Undershirts, Polypropylene                 2               0                2              No
Undershirts, Silk                          2               0                0              No
Drawers, Silk                              2               0                0              No
Shirt, Fleece                              1               0                0              Yes
Liner, Trousers                            1               0                0              Yes
Coat                                       1               0                0              Yes
Parka                                      1               0                0              Yes
Trousers                                   1               0                0              Yes
Parka, Wet Weather                         1               0                0              Yes
Trousers, Wet Weather                      1               0                0              Yes
Poncho, Wet Weather                        1               0                1              Yes
Liner, Poncho, Wet                         1               0                1              Yes
Chitosan Dressing                          1               0                0              Yes

Note:

Deploying personnel are also issued a Chemical-Biological M40A1.

*Army and Air Force Exchange Service Personnel

† Enhanced Small Arms Protective Insert.

Source: Department of the Army PPG Chapter 6, updated periodically, last updated February 18, 2009.





                                                  20 

Appendix C. Systems That Track Clothing
and Equipment Items and Personnel
Central Issue Facility Installation Support Module
The module is managed by TACOM LCMC. The CIF-ISM module came online in
October 2006. The CIF module’s objective is to automate the business processes at the
central issue facilities at Army installations. The module provides a standard Army-wide,
automated system for the receipt, storage, issue, exchange, and turn-in of authorized
OCIE at Army installations.

Deployed Theater Accountability System
This system is managed by the Army Human Resources Command. The restricted
system provides the U.S. Army with a mechanism for monitoring the location and duty
status of deployed soldiers, civilians, and contractor employees. This capability is vital in
determining the war-fighting capability of the Army and subordinate commands. An
unrestricted bridge that will allow access to end-of-tour dates is under development.

Synchronized Predeployment and Operational Tracker
SPOT is a program within the Business Transformation Agency’s Defense Business
Systems Acquisition Executive directorate. The Defense Business Systems Acquisition
Executive directorate is responsible for implementing DOD systems and initiatives in
support of the Department’s Business Transformation goals. The Business
Transformation Agency’s mission is to develop, coordinate, and integrate projects,
programs, systems, and initiatives providing DOD Enterprise-wide business. Defense
contractors, Government agencies, and the military use the system to manage and track
contractor employees accompanying U.S. Armed Forces overseas. The system was
designated by the Office of the Secretary of Defense as the system of record in
accordance with DOD Instruction 3020.41, “Contractor Personnel Authorized to
Accompany the U.S. Armed Forces”, which requires a single joint database for logistics,
operations, planning, and reporting of deployed contractor status to Government and
Defense contractor stakeholders. It has expanded from an Army-only system to a DOD-
wide system and is currently being implemented in other Government agencies.

Joint Asset Movement Management System
This system uses scanning technology to record deployment movements. Deployment
movements are a collection of recorded movement scans that are captured as a person
moves throughout the area of responsibility. JAMMS workstations are located at
population chokepoints like dining facilities and ports of debarkation. Scans are
registered in the JAMMS by using a device that reads barcodes stored on SPOT-
generated Letters of Authorization, Common Access Cards, and Defense Biometric
Identification System Cards. JAMMS files are uploaded to SPOT.




                                             21 

Property Book Unit Supply Enhanced System
This system is managed by a Configuration Control Board, made up of members from
G-4 (Logistics) and a Baseline Configuration Control Board, consisting of the Program
Manager, Logistics Information Systems; representatives of the Combined Arms Support
Command; and the developer. This property system provides property accountability,
serial number tracking, asset adjustments, transfers, and authorization updates for
controlled items.

Other Systems
Other systems were in place that were intended to provide information on the movement
of civilians and contractor employees. However, for various reasons, these other systems
had incomplete or inaccurate data.




                                           22 

Appendix D. Revised Process for Return
From Deployment




                    23 

Appendix E. Chains of Command for
Organizational Clothing and Individual
Equipment



                "--                  .......un,~ ..
                                          ,~~
                                                                            -     ..... ~
                                                                                  ,~~
                                                                                             .
                                                                                                            "-
                                                                                                          -.~



                    -- -
                ~"'"'""' of


                                                                               "-
                                      'n..............                          'n..........
  CF _   _!MA
                "'-""""'<>1            E" . . .. . " . ..                                                     --~


            -    --
                    0_
                  II,S    _
                       . """"


                          -
                                     ---
                                      "-
                                        U.S. lumy
                                        'n...........
                                                                                 U.S . ,..",.
                                                                                T'_ ....
                                                                               Orr-
                                                                                JJ
                                                                                  ~


                                                                   ro.l""'",....".,.
                                                                                                           "-
                                                                                                              --
                                                                                                              U.S. """"




                                                                                                         ----u--  r Ae"," _

                                                                                                             ..~-
                                                                                l ·~ l
                                                                                                              --  ~"'"'"




                   ,_
                C. ....... , .....
                                                                   ~ Il
                                                                    1=- 1
                                                                                       lJ
                                                                                                  <>Cu   . ....

                                                                                                             1=- 1
                                                                                                                    Jt



                                                                                   ,-
                Ai AI s.Iom.
                    1("" . .

                                                                                c.no-al 0. ....

                                                                                 '< 8 _




                                                                                 ... -
                                                                            .- I ~
                                                                          - -
                                                                         I .--:'
                                                                          -- -




                                                            24 

25 

